Follow-up Audit of Information Security Management of FDIC Contractors

(Audit Report No. 03-043, September 26, 2003)


Summary

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General has completed a
follow-up audit of information security management of contractors with access to the
Corporation’s sensitive information resources. The objective of this audit was to determine
whether the FDIC had made adequate progress in addressing the recommendations in Audit
Report No. 02-035, Information Security Management of FDIC Contractors, dated
September 30, 2002. Our audit focused on information security in acquisition planning, contract
security provisions, and contractor oversight. To accomplish our objectives, we reviewed new
policies and procedures issued by the FDIC to address recommendations in our audit Report
No. 02-035 and the FDIC’s actions to implement the new policies and procedures. Furthermore,
we performed limited testing at five FDIC off-site contractors to evaluate their security practices.

The FDIC has developed and finalized policies and procedures to address the prior report
recommendations regarding security in acquisition planning, contract requirements, and
contractor oversight. In addition, the FDIC intends to ensure that new contracts contain adequate
security provisions and plans to evaluate the cost benefit of modifying existing contracts to
include adequate security provisions.

Recommendations

We did not make recommendations related to acquisition planning or contract security
requirements because it was premature to evaluate the effectiveness of the policies and
procedures that FDIC recently issued. However, we did recommend that the Acting Director,
Division of Information and Resources Management (DIRM), update contractor security
oversight procedures.

Management Response

The Acting Director, DIRM, adequately addressed the report recommendations, which are
considered resolved.

This report addresses issues associated with information security. Accordingly, we have not
made, nor do we intend to make, public release of the specific contents of the report.
